Highlights
Table of Contents




                    Topeka, KS,
                    Material
                    Distribution
                    Center –
Findings




                    Information
                    Technology
                    Logical Access
                    Controls
Recommendations




                    Audit Report
                    Report Number
                    IT-AR-14-007
                    July 11, 2014
Appendices




                                     Print
Highlights
Table of Contents




                    Highlights                                       Background                                                              on any of the 14 servers or configure three database servers in
                                                                                                                                             accordance with security standards. In addition, the MDC did
                                                                     The Material Distribution Center (MDC) in Topeka, KS, provides
                                                                                                                                             not use                  software on two servers or adequately
                                                                     critical and essential services to all U.S. Postal Service facilities
                                                                                                                                             protect                       server from unauthorized use.
                                                                     such as parts, equipment, supplies, and print services. The
                         These security weaknesses                                                                                           These security issues occurred because administrators were
                                                                     MDC distributes materials to about 31,000 facilities, and it
                                                                                                                                             focused on other priorities, such as configuring applications
Findings




                        could result in unauthorized                 warehouses more than 26,000 items. The MDC uses an
                                                                                                                                             for the January 2014 postage rate increase and securing
                                                                     application to manage inventory, including shipment of about
                                                                                                                                             the environment for credit card activity. In addition, due
                        access to the check printing                 112 million blank money orders to post offices around the
                                                                                                                                             to an oversight, management did not ensure that security
                                                                     country. It also uses a check printing application to print about
                         and inventory management                                                                                            configurations were reviewed on the web application server.
                                                                     192,000 payroll checks per month.
                       applications and modification                                                                                         What The OIG Recommended
                                                                     Because of the vital services the MDC provides, it is imperative
                                      of their data.                 that it adhere to Postal Service policies for maintaining and           We recommended management properly configure databases,
Recommendations




                                                                     securing these applications.                                            verify that the latest approved                   software
                                                                                                                                             is enabled on operating systems, and develop a process to
                                                                     Our objective was to determine whether electronic safeguards            ensure security configurations are reviewed on all web servers.
                                                                     for the check printing and inventory management applications            We are not making a recommendation regarding updating
                                                                     were operating effectively to protect data from unauthorized            operating systems because management completed corrective
                                                                     modification, loss, and disclosure. Electronic safeguards               action during the audit.
                                                                     include operating system updates, database configuration,
                                                                                software, and web application security.

                                                                     What The OIG Found
Appendices




                                                                     The MDC did not adequately safeguard the 14 servers
                                                                     that support the check printing and inventory management
                                                                     applications, thereby jeopardizing the security of their data.
                                                                     Specifically, management did not update the operating systems

                    Topeka, KS, Material Distribution Center –
                    Information Technology Logical Access Controls
                    Report Number IT-AR-14-007
                                                                                                                                                                    Print                                  1
Highlights
                    Transmittal Letter


                                                                     July 11, 2014
Table of Contents




                                                                     MEMORANDUM FOR:	 JOHN T. EDGAR
                                                                     				VICE PRESIDENT, INFORMATION TECHNOLOGY




                                                                     				

                                                                     FROM: 			                  John E. Cihota
                                                                     				                       Deputy Assistant Inspector General
                                                                     				                        for Finance and Supply Management

                                                                     SUBJECT: 	 Audit Report –Topeka, KS, Material Distribution Center – Information
Findings




                                                                     Technology Logical Access Controls (Report Number IT-AR-14-007)

                                                                     This report presents the results of our audit of the U.S. Postal Service’s Topeka, KS,
                                                                     Material Distribution Center Information Technology Logical Access Controls
                                                                     (Project Number 14BG001IT000).

                                                                     We appreciate the cooperation and courtesies provided by your staff. If you have
                                                                     any questions or need additional information, please contact Sean D. Balduff, acting
Recommendations




                                                                     director, Information Technology, or me at 703-248-2100.

                                                                     Attachment

                                                                     cc:	   Corporate Audit and Response Management
Appendices




                    Topeka, KS, Material Distribution Center –
                    Information Technology Logical Access Controls
                    Report Number IT-AR-14-007
                                                                                                                                          Print               2
Highlights
                    Table of Contents
                                                                     Cover
                                                                     Highlights.......................................................................................................1
                                                                      Background.................................................................................................1
                                                                      What The OIG Found..................................................................................1
                                                                      What The OIG Recommended...................................................................1
                                                                     Transmittal Letter...........................................................................................2
Table of Contents




                                                                     Findings.........................................................................................................4
                                                                      Introduction.................................................................................................4
                                                                      Conclusion..................................................................................................5
                                                                      Patch Management Compliance.................................................................5
                                                                              Database Compliance.....................................................................7
                                                                                             Compliance.......................................................................7
                                                                      Web Application Compliance......................................................................8
                                                                     Recommendations........................................................................................9
                                                                      Management’s Comments..........................................................................9
Findings




                                                                      Evaluation of Management’s Comments....................................................9
                                                                     Appendices..................................................................................................10
                                                                      Appendix A: Additional Information........................................................... 11
                                                                        Background............................................................................................ 11
                                                                        Objective, Scope, and Methodology....................................................... 11
                                                                        Prior Audit Coverage..............................................................................12
Recommendations




                                                                      Appendix B: Patch Management Compliance Issues...............................13
                                                                      Appendix C:                   Database Compliance Issues...................................16
                                                                      Appendix D: Hardening Standards...........................................................17
                                                                      Appendix E: Web Vulnerabilities Examples..............................................18
                                                                                                  ...................................................................................18
                                                                                                                     ................................................................19
                                                                                                 ....................................................................................20
                                                                      Appendix F: Sample Selection Summary.................................................21
                                                                      Appendix G: Management’s Comments...................................................22
Appendices




                                                                     Contact Information.....................................................................................25



                    Topeka, KS, Material Distribution Center –
                    Information Technology Logical Access Controls
                    Report Number IT-AR-14-007
                                                                                                                                                               Print                      3
Highlights
                    Findings                                         Introduction
                                                                     This report presents the results of our self-initiated audit of the U.S. Postal Service’s Topeka, KS, Material Distribution Center’s
                                                                     (MDC) information technology (IT) logical access controls1 (Project Number 14BG001IT000). Our objective was to determine
                                                                     whether electronic safeguards for the check printing and inventory management applications were in place and operating
                                                                     effectively to protect data from unauthorized modification, loss, and disclosure. Electronic safeguards include configuring
                                                                     databases, updating operating systems, using                        software, and securing web applications. See Appendix A for
                                                                     additional information about this audit.
Table of Contents




                                                                     The MDC provides critical and essential services to all Postal Service facilities such as parts, equipment, supplies, and print
                                                                     services. The MDC distributes materials to about 31,000 facilities, warehouses more than 26,000 items, and manages inventory. In
                                                                     addition, the MDC annually ships about 112 million blank money orders to post offices around the country.

                                                                     In 1975, the Postal Service added the Label Printing Center (LPC) to the MDC. In June 2013, it changed the LPC’s name to the
                                                                     National Print Center (NPC) to reflect its mission of consolidating Postal Service print operations into the new center. All print
                                                                     functions, such as payroll checks and earning statements, are now printed at the NPC. The NPC prints about 192,000 payroll
                                                                     checks per month and 12 million earning statements per year.

                                                                     The Infoprint Process Director (IPPD)2 is one of the applications used to manage the printing process. Another application, the
                                                                     Material Distribution and Inventory Management System (MDIMS),3 is used to manage inventory. Because of the vital services the
                                                                     MDC provides, it is imperative that it adhere to Postal Service policies and procedures for maintaining and securing the IPPD and
Findings




                                                                     MDIMS applications.

                                                                     The Corporate Information Security Office provides hardening standards4 to support the creation of a strong security infrastructure
                                                                     and protect Postal Service electronic business applications and sensitive customer and internal data. The primary reason for these
                                                                     standards is to protect electronic transactions from increasing external (non-employee) and internal (employee) threats, such as
                                                                     computer           and data modification. These threats can be either malicious or benign.

                                                                     Logical access controls are often built into the operating system or may be part of the logic of application programs. These controls
Recommendations




                                                                     protect computer systems and data by verifying and validating authorized users, authorizing user access to computer systems and
                                                                     data, and restricting transactions according to the user’s authorization level.
Appendices




                                                                     1	   Electronic controls in computer systems used to prevent or detect unauthorized access such as passwords and account restrictions.
                                                                     2	   A database-driven print workflow system that manages all aspects of a printing process. In this case, the application manages the print environment for the NPC.
                                                                     3	   A real-time system used to perform material distribution, warehousing, and inventory management business functions for the Postal Service.
                                                                     4	   Hardening standards provide security requirements and controls for all information resources. The standards apply to all devices with connectivity to the Postal Service’s
                                                                          computing infrastructure including, but not limited to, server hardware or devices operating server software, such as databases, operating systems, and servers.
                                                                      	


                    Topeka, KS, Material Distribution Center –
                    Information Technology Logical Access Controls
                    Report Number IT-AR-14-007
                                                                                                                                                                                               Print                                                   4
Highlights                                                           Conclusion
                                                                     The MDC did not adequately safeguard any of the 14 servers supporting the IPPD and MDIMS applications to protect against data
                                                                     modification, loss, and disclosure. Specifically, management did not update the operating systems on any of the 14 servers; did not
                                                                     configure three database servers in accordance with security standards; did not use                   software on two servers; and
                                                                     inadequately protected one web application server from unauthorized use. These security issues occurred because administrators
                                                                     were focusing on other priorities, such as configuring applications for the January 2014 postage rate increase and securing the
                                                                     environment for credit card activity. In addition, due to an oversight, management did not ensure security configurations were
                             Servers supporting the                  reviewed on the web application server.
Table of Contents




                          distribution and inventory                 These security weaknesses could result in unauthorized access to the IPPD and MDIMS applications and modification of their
                             management of money                     data. We estimated that 75,619 money orders with the potential value of about $76 million are at risk of theft annually due to
                                                                     inadequate security controls on all 14 servers. Effective security controls increase the probability that the Postal Service will detect
                         orders were not adequately                  and prevent a data compromise that might negatively affect the confidentiality, integrity, and availability of information resources.6

                                      safeguarded.
                                                                     Patch Management7 Compliance
                                                                     Administrators8 did not install the latest operating system software updates on any of the 14 servers that support the IPPD and
                                                                     MDIMS applications.9

                                                                     Specifically:
Findings




                                                                     ■■ We identified 14 software security updates that were not installed on the two print servers supporting the IPPD application.
                                                                        Management decided not to install patches during the normal patch cycle10 due to the holiday season and price rate change.
                                                                        During our audit, administrators installed all 14 updates on servers in subsequent patch cycles; therefore, we are not making a
                                                                        recommendation for this issue.

                                                                     ■■ We identified 42 software security updates that were not installed on the 12 servers supporting the MDIMS application.
                                                                        Management stated that they deferred installation of updates until they upgraded the servers. During our audit, administrators
Recommendations




                                                                        installed all 42 updates on servers in subsequent patch cycles; therefore, we are not making a recommendation for this issue.

                                                                     See Appendix B for specific details on the update issues related to the IPPD and MDIMS servers.




                                                                     6	 All Postal Service information assets, including information systems, hardware, software, data, and applications.
Appendices




                                                                     7	 Patch management is the process for identifying, acquiring, installing, and verifying patches for products and systems. Patches correct security and functionality problems
                                                                        in software and firmware.
                                                                     8	 IPPD and MDIMS administrators are in Eagan, MN.
                                                                      	

                                                                     10	 The normal patch cycle for deploying                      Server Security patches is                                                . During this period, management
                                                                         analyzes, tests, and applies (if appropriate) vendor-recommended patches.
                    Topeka, KS, Material Distribution Center –
                    Information Technology Logical Access Controls
                    Report Number IT-AR-14-007
                                                                                                                                                                                             Print                                                5
Highlights                                                           Table 1 summarizes the 56 software updates the U.S. Postal Service Office of Inspector General’s (OIG) automated scanning
                                                                     tools determined were missing from one or more of the 14 servers we tested. Table 2 summarizes the 56 updates in Table 1 by
                                                                     age.

                                                                     Table 1. Missing Critical11 and High-Risk12 Updates

                                                                                                   Number
                                                                      Application                 Of Servers                 Operating              Third                               Total Unique
                                                                      Name                         Affected                   System1               Party2        Database3            Vulnerabilities
Table of Contents




                                                                      IPPD                                 2                        8                   6                0                      14
                                                                      MDIMS                               12                        5                  23               14                      42
                                                                      TOTAL                               14                       13                  29               14                      56
                                                                      Source: OIG Nessus and GFI LanGuard scanning tool results
                                                                      1 A software that manages all other programs running on a computer.
                                                                      2 Programs developed by companies other than the company that developed the computer’s operating system.
                                                                      3 Database software describes any software designed for creating databases and managing the information stored in them.


                                                                     Table 2. Missing Updates By Age

                                                                      Application
                                                                      Name                                               Update Age
                                                                                                                    31-60         61-90       91+
Findings




                                                                                                0-30 days1          days          days        days        TOTAL
                                                                      IPPD                            4               6             0          4             14
                                                                      MDIMS                           3               0             2          37            42
                                                                      TOTAL                           7               6             2          41            56
                                                                      Source: OIG Nessus and GFI LanGuard scanning tool results
                                                                      1 The vendor recommends that critical patches be applied immediately.
Recommendations




                                                                     As a result, the IPPD and MDIMS applications did not have adequate safeguards in place to protect applications and data from
                                                                     damage or compromise. Managing updates are critical for ensuring the integrity and reliability of information resources. Untimely
                                                                     installation of updates could allow an attacker to run malware13 or obtain sensitive information.
Appendices




                                                                     11	 A rating that an IT vendor (such as Microsoft) assigns to communicate the severity of a security weakness. In this case, a critical rating means the worst scenario could
                                                                         occur, such as a system being hacked. The vendor recommends the customer apply the update immediately.
                                                                     12	 A rating that an IT vendor assigns to communicate the severity of the risk. In this case, it evaluates the level of risk associated with the security risk. The vendor
                                                                         recommends the customer apply the update at the earliest opportunity.
                                                                     13	 Malware is software programs designed to damage or perform unwanted actions to a computer system.
                    Topeka, KS, Material Distribution Center –
                    Information Technology Logical Access Controls
                    Report Number IT-AR-14-007
                                                                                                                                                                                                     Print                                           6
Highlights                                                                             Database Compliance
                                                                                  database administrators14 improperly configured three of five15 database servers supporting the MDIMS application.
                                                                          Specifically, we identified 15 unique security settings that were not configured in accordance with Postal Service hardening
                                                                          standards.16 See Appendix C for specific details on the configuration issues related to the MDIMS application databases.
                                                                          Administrators did not properly configure the servers after the Postal Service revised its hardening standards in June 2013
                                                                          because they had other priorities, such as configuring a secure enclave17 to comply with Payment Card Industry Security
                                                                          Standards.18 When databases are not configured correctly, a person could read and, accidentally or intentionally, change, add,
                      Inventory management servers                        or delete an order for supplies such as blank money order stock entered into MDIMS. As a result, we estimated 151,238 money
Table of Contents




                                                                          orders with the potential value of about $151 million are at risk of theft over 2 years due to inadequate security controls on the
                     had                                      disabled,
                                                                          14 servers.

                                                                                                          Compliance
                                                                          We determined that two of the 12 application servers we tested supporting the MDIMS application did not have approved and
                                                                                                     enabled on the           operating system. See Appendix D for a summary of the security compliance
                                                                          settings we reviewed. This occurred because administrators decided to disable the                   software on the two servers
                                                                          because they thought it was incompatible with MDIMS; however, the administrators did not confirm that the
                                                                          software was incompatible, nor did they install                   software on these servers.

                                                                                                                          During our audit administrators began running tests to re-enable                                       software on the
Findings




                                                                          two application servers.
Recommendations
Appendices




                                                                          14	       database administrators are in Raleigh, NC.
                                                                          15	 We performed       database scans on the three databases that were classified as production databases for MDIMS.

                                                                          16	 Security Hardening Standards for
                                                                          17	 An enclave is a network area where special protections and access controls, such as firewalls and routers, are used to secure information resources.
                                                                          18	 A set of requirements designed to ensure that all companies that process, store, or transmit credit card information maintain a secure environment.
                                                                          19	 Security Standards for
                    Topeka, KS, Material Distribution Center –
                    Information Technology Logical Access Controls
                    Report Number IT-AR-14-007
                                                                                                                                                                                                 Print                                         7
Highlights                                                           Web Application Compliance
                                                                                                          Servers20 supporting the MDIMS application was not adequately protected from unauthorized
                                                                     modification, loss, and disclosure. Specifically, we identified security weaknesses as follows:

                                                                     ■■


                                                                     ■■
Table of Contents




                                                                     ■■


                                                                     These vulnerabilities existed because management did not ensure a security code review24 was performed and documented on
                                                                     MDIMS. As a result, an unauthorized person could obtain sensitive data and compromise IT security.
Findings
Recommendations




                                                                     20	 Provides the environment to run web-enabled applications. This development server was replicated from the production server specifically for our testing because of the
                                                                         possibility of corrupting the production environment with script injection and parameter manipulation.
Appendices




                                                                                                         
                                                                     24	 A security code review is an analysis of the source code and documentation to verify compliance with software design documents and programming standards and the
                                                                         absence of malicious code.
                    Topeka, KS, Material Distribution Center –
                    Information Technology Logical Access Controls
                    Report Number IT-AR-14-007
                                                                                                                                                                                            Print                                                  8
Highlights
                    Recommendations                                     We recommend the vice president, Information Technology, direct the manager, Solutions Development and Support, to:

                                                                        1.	 Configure and update all database servers that support the Material Distribution and Inventory Management System
                                                                            application.

                                                                        2.	 Verify the latest approved                   software is enabled on all servers supporting the Material Distribution and
                                                                            Inventory Management System application.

                       We recommend management                          3.	 Review security codes on all web servers that support the Material Distribution and Inventory Management System application.
Table of Contents




                       properly configure databases;
                                                                        Management’s Comments
                       verify the latest and approved
                                                                        Management agreed with all the findings and recommendations in the report and disagreed with our estimated other impact of
                                                           is enabled   $151.2 million.

                          on operating systems; and                     In response to recommendation 1, management will configure and update all databases that support the MDIMS application.
                                                                        Management’s target implementation date is March 31, 2015.
                        develop a process to ensure
                                                                        In response to recommendation 2, management initiated a project to re-enable the                       software on the impacted
                         security configurations are
                                                                        MDIMS servers. Management’s target implementation date is August 31, 2014.
                        reviewed on all web servers.
                                                                        In response to recommendation 3, management are currently remediating vulnerabilities identified in our report and will perform
Findings




                                                                        code reviews on MDIMS servers. Management’s target implementation date is August 31, 2014.

                                                                        Management disagreed with the amount of potential risk that exists in the MDIMS and the value of money orders at risk of being
                                                                        fraudulently cashed due to inadequate security controls. Further, management believe that existing controls significantly reduce
                                                                        the risk associated with this estimated cost, including a reconciliation process performed at the accounting service center that
                                                                        identifies money orders sold with invalid serial numbers.
Recommendations




                                                                        See Appendix G for management’s comments, in their entirety.

                                                                        Evaluation of Management’s Comments
                                                                        The OIG considers management’s comments responsive to the recommendations and corrective actions should resolve the issues
                                                                        identified in the report.

                                                                        Regarding management’s disagreement with our estimate of potential risk that exists in the MDIMS, the OIG’s calculation of
                                                                        potential risk considered controls that prevent fraud from occurring. Management refers to the money order reconciliation process
                                                                        as a compensating control; however, this process is a detective control that identifies fraudulently issued and cashed money
                                                                        orders after the fraud has occured. Therefore, we believe our estimated value of about $151 million for money orders at risk is
                                                                        reasonable.
Appendices




                                                                        The OIG considers recommendations 2 and 3 significant, and therefore requires OIG concurrence before closure. Consequently,
                                                                        the OIG requests written confirmation when corrective actions are completed. These recommendations should not be closed in the
                                                                        Postal Service’s follow-up tracking system until the OIG provides written confirmation that the recommendations can be closed.
                    Topeka, KS, Material Distribution Center –
                    Information Technology Logical Access Controls
                    Report Number IT-AR-14-007
                                                                                                                                                                  Print                                     9
Highlights
                    Appendices
                                                                     Appendix A: Additional Information........................................................... 11
                                                                      Background............................................................................................ 11
                                                                      Objective, Scope, and Methodology....................................................... 11
                                                                      Prior Audit Coverage..............................................................................12
                          Click on the appendix title                Appendix B: Patch Management Compliance Issues...............................13
                                                                     Appendix C:            Database Compliance Issues...................................16
Table of Contents




                        to the right to navigate to the
                                                                     Appendix D: Hardening Standards...........................................................17
                                   section content.                  Appendix E: Web Vulnerabilities Examples..............................................18
                                                                                          ...................................................................................18
                                                                                                             ................................................................19
                                                                                         ....................................................................................20
                                                                     Appendix F: Sample Selection Summary.................................................21
                                                                     Appendix G: Management’s Comments...................................................22
Findings
Recommendations
Appendices




                    Topeka, KS, Material Distribution Center –
                    Information Technology Logical Access Controls
                    Report Number IT-AR-14-007
                                                                                                                                                        Print                     10
Highlights          Appendix A:                                      Background
                    Additional Information                           The MDC is a roughly 950,000 square foot warehouse for more than 26,000 different parts, pieces of equipment, and supplies.
                                                                     The MDC performs print services, material distribution, and inventory management for about 31,000 facilities the Postal Service
                                                                     manages. The MDC consists of the following centers:

                                                                     ■■ The NPC, which prints more than 95 million pages of documents per year, such as manuals, payroll checks, and earning
                                                                        statements.
Table of Contents




                                                                     ■■ The MDC, which processes more than 3.8 million postal-related orders per year, such as parts and supplies.

                                                                     ■■ The Inventory Control Center, which manages inventory for the Postal Service.

                                                                     In support of operations, MDC employees and customers use roughly 15 applications to conduct business.

                                                                     The Postal Service has information security policies to protect applications and data from unauthorized use and modification,
                                                                     including logical controls for protecting applications and information.

                                                                     Objective, Scope, and Methodology
                                                                     Our objective was to determine whether electronic safeguards, such as configuring databases, updating operating systems, using
                                                                                     software, and securing web applications, were in place and operating effectively to protect data from the check
Findings




                                                                     printing and inventory management applications against unauthorized modification, loss, and disclosure. We used AppDetective,25
                                                                     GFI LanguardTM,26 Nessus®,27 and Hewlett-Packard WebInspect28 to accomplish our objective.

                                                                     We performed our work at the Information Technology Service Center in Eagan, MN, and the MDC in Topeka, KS. Our assessment
                                                                     included a review of two IPPD servers and 12 MDIMS servers. We selected the IPPD application because it manages all printers
                                                                     in the NPC that print documents containing sensitive information, such as birth dates and salaries. In addition, we selected the
                                                                     MDIMS application because of the inherent risk associated with using this application to ship blank money order stock to post
Recommendations




                                                                     offices throughout the country. We assessed these servers for vulnerabilities and compliance with Postal Service information
                                                                     security policies and standards. Additionally, we interviewed Postal Service IT staff, assessed scan results, and provided our
                                                                     assessment to Postal Service administrators. See Appendix F for servers tested.

                                                                     We conducted this performance audit from November 2013 through July 2014, in accordance with generally accepted government
                                                                     auditing standards and included such tests of internal controls as we considered necessary under the circumstances. Those
                                                                     standards require that we plan and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for
                                                                     our findings and conclusions based on our audit objective. We believe that the evidence obtained provides a reasonable basis for
                                                                     our findings and conclusions based on our audit objective. We discussed our observations and conclusions with management on
                                                                     June 11, 2014, and included their comments where appropriate.
Appendices




                                                                     25	 A network-based discovery and vulnerability scanner that discovers database applications within the infrastructure and assesses their security strength. It scans
                                                                         databases for vulnerabilities, configuration issues, weak passwords, missing patches, access control concerns, and other issues that can lead to user privilege escalation.
                                                                     26	 A network security scanner and patch management tool that allows the ability to scan, detect, assess, and rectify security vulnerabilities.
                                                                     27	 A vulnerability and configuration assessment product that features high-speed discovery, configuration auditing, asset profiling, sensitive data discovery, patch
                                                                         management integration, and vulnerability analysis.
                                                                     28	 An automated and configurable web application security and penetration testing tool that mimics real-world hacking techniques and attacks, enabling the user to
                                                                         thoroughly analyze complex web applications and services for security vulnerabilities.
                    Topeka, KS, Material Distribution Center –
                    Information Technology Logical Access Controls
                    Report Number IT-AR-14-007
                                                                                                                                                                                             Print                                               11
Highlights                                                           We assessed the reliability of operating system and database configuration data by performing electronic testing of the hosts,
                                                                     reviewing resultant data for false positives and other anomalies, and interviewing agency officials knowledgeable about the data.
                                                                     We determined that the data were sufficiently reliable for the purposes of this report.

                                                                     Prior Audit Coverage
                                                                                          Report          Final Report
                                                                     Report Title         Number          Date             Monetary Impact
                                                                     Fiscal Year 2012
Table of Contents




                                                                     Information            IT-AR-13-003 1/28/2013            None
                                                                     Technology
                                                                     Internal Controls
                                                                     Report Results: The infrastructure-level internal controls we tested were properly
                                                                     designed and generally operating effectively; however, we identified several
                                                                     opportunities to strengthen certain infrastructure-level internal controls. Specifically,
                                                                     management could strengthen security monitoring of operating system and database
                                                                     activity, better segregate duties for administrators, ensure effective use of intrusion
                                                                     detection and prevention software, and improve the process for monitoring UNIX
                                                                     and Windows server compliance with operating system configuration requirements.
                                                                     The control weaknesses identified, alone or collectively, did not prevent reliance
                                                                     on infrastructure-level internal controls for the accuracy and timeliness of financial
                                                                     reporting. Management agreed with the findings and recommendations.
                                                                     Fiscal Year 2011
                                                                     Information            IT-AR-12-003 1/9/2012             None
Findings




                                                                     Technology
                                                                     Internal Controls
                                                                     Report Results: The infrastructure level internal controls we tested were properly
                                                                     designed and were generally operating effectively; however, we identified opportunities
                                                                     for management to strengthen certain internal controls over operating systems,
                                                                     databases, data transfer services, job scheduling, and data backup and restoration
                                                                     operations. In addition to the issues identified in Fiscal Year (FY) 2011, we reported on
                                                                     the status of unresolved issues from the FY 2010 review. Management agreed with the
                                                                     recommendations.
Recommendations
Appendices




                    Topeka, KS, Material Distribution Center –
                    Information Technology Logical Access Controls
                    Report Number IT-AR-14-007
                                                                                                                                                                 Print                               12
Highlights          Appendix B:                                      Table 3 describes software updates for the vulnerabilities detailed in Table 1 relevant to the IPPD application. During our
                                                                     audit, management took corrective action on all critical and high-risk updates noted in Table 4 for the                     and
                    Patch Management
                                                                                        servers.
                    Compliance Issues
                                                                     Table 3: Software Updates - Topeka IPPD

                                                                     No. Missing Critical and High-Risk Updates                                Risk Factor

                                                                       1                                                                         Critical
Table of Contents




                                                                       2                                                                         Critical

                                                                       3                                                                         Critical

                                                                       4                                                                         Critical

                                                                       5                                                                          High

                                                                       6                                                                         Critical

                                                                       7                                                                          High
Findings




                                                                       8                                                                         Critical

                                                                       9                                                                         Critical
                                                                      10                                                                          High
                                                                      11                                                                          High

                                                                      12                                                                          High
Recommendations




                                                                      13                                                                         Critical
                                                                      14                                                                          High
                                                                     Source: OIG Nessus and GFI LanGuard scanning tool results.
Appendices




                    Topeka, KS, Material Distribution Center –
                    Information Technology Logical Access Controls
                    Report Number IT-AR-14-007
                                                                                                                                                                 Print                                 13
Highlights                                                           Table 4 describes software updates shown in Table 1 relevant to the MDIMS application. During our audit, management took
                                                                     corrective action on all critical and high-risk updates noted in the table below for the following servers:
Table of Contents




                                                                     Table 4: Software Updates - MDIMS

                                                                      No.   Missing Critical and High-Risk Updates                                    Risk Factor

                                                                       1                                                                                Critical

                                                                       2                                                                                 High

                                                                       3                                                                                 High

                                                                       4                                                                                 High
Findings




                                                                       5                                                                                Critical
                                                                       6                                                                                 High
                                                                       7                                                                                Critical
                                                                       8                                                                                Critical
                                                                       9                                                                                 None
Recommendations




                                                                       10                                                                                High
                                                                       11                                                                               Critical
                                                                       12                                                                               Critical
                                                                       13                                                                               Critical
                                                                       14                                                                               Critical
                                                                       15                                                                               Critical
                                                                       16                                                                               Critical
                                                                       17                                                                               Critical
                                                                       18                                                                               Critical
                                                                       19                                                                               Critical
Appendices




                                                                       20                                                                               Critical
                                                                       21                                                                               Critical
                                                                       22                                                                               Critical


                    Topeka, KS, Material Distribution Center –
                    Information Technology Logical Access Controls
                    Report Number IT-AR-14-007
                                                                                                                                                           Print                                14
                                                                      No.     Missing Critical and High-Risk Updates     Risk Factor
Highlights
                                                                       23                                                  Critical
                                                                       24                                                  Critical
                                                                       25                                                   High
                                                                       26                                                   High
                                                                       27                                                   High
                                                                       28                                                   High
                                                                       29                                                  Critical
Table of Contents




                                                                       30                                                  Critical
                                                                       31                                                  Critical
                                                                       32                                                  Critical
                                                                       33                                                  Critical
                                                                       34                                                  Critical
                                                                       35                                                  Critical
                                                                       36                                                  Critical
                                                                       37                                                  Critical
                                                                       38                                                  Critical
                                                                       39                                                  Critical
                                                                       40                                                  Critical
Findings




                                                                       41                                                  Critical
                                                                       42                                                  Critical
                                                                     Source: OIG Nessus and GFI LanGuard scan results.
Recommendations
Appendices




                    Topeka, KS, Material Distribution Center –
                    Information Technology Logical Access Controls
                    Report Number IT-AR-14-007
                                                                                                                              Print    15
Highlights          Appendix C:                                      Table 5 summarizes 15 unique compliance checks and configurations that the OIG’s automated scans determined were not
                          Database                                   compliant with the Security Hardening Standards for                 Databases. For example, server                profile
                    Compliance Issues                                was not configured to                               as specified in the hardening standards.

                                                                     Table 5.                  Database Compliance Issues – MDIMS Application

                                                                                         Vulnerability Checks and
                                                                     Category            Noncompliance Issues Description                       MDIMS Application
Table of Contents




                                                                     Profiles
                                                                                                                                     x                   x                   x
                                                                                                                                     x                   x                   x
                                                                     Startup Parameter Settings
                                                                                                                                     x                   x                   x
                                                                                                                                     x                   x                   x
                                                                                                                                     x                   x                   x
                                                                     Restrict Network Access
                                                                                                                                     x                   x                   x
Findings




                                                                     General Application Configuration Requirements
                                                                                                                                     x                   x                   x
                                                                                                                                     x                   x                   x

                                                                                                                                     x                   x                   x

                                                                                                                                     x                   x                   x
Recommendations




                                                                                                                                     x                   x                   x

                                                                                                                                     x                   x                   x
                                                                                                                                     x                   x                   x
                                                                     Use of Roles
                                                                                                                                     x                   x                    x
                                                                                                                                     x                   x                    x
                                                                                         Total                                      15                  15                   15
                                                                     Source: AppDetective and Nessus scanning tools results.
Appendices




                    Topeka, KS, Material Distribution Center –
                    Information Technology Logical Access Controls
                    Report Number IT-AR-14-007
                                                                                                                                                             Print                               16
Highlights          Appendix D:                                      Table 6 summarizes the compliance checks that the OIG performed to determine if servers running the                   operating system
                                                                     were compliant with Postal Service hardening standards. The “●” in the table identifies those servers that were compliant with
                    Hardening Standards
                                                                     hardening standards. The “■” in the table identifies those servers that were not compliant with hardening standards. Specifically,
                                                                     our scans identified two servers,                  and                   , that did not have an approved
                                                                               software enabled. Both servers had the                                      version                installed, but the
                                                                     software was not enabled. In addition, the servers did not have version             or version      installed. In its security advisory
                                                                                 , the vendor recommends that an agency such as the Postal Service install version               or version         .

                                                                     Table 6. MDIMS Application Servers running                            operating system
Table of Contents




                                                                                                                                  SERVER NAME




                                                                            COMPLIANCE CHECK
                                                                       Password Management
                                                                       Enforced Password History
                                                                       Maximum Password Age
                                                                       Minimum Password Age
Findings




                                                                       Minimum Password Length
                                                                       Default Accounts Locked/
                                                                       Password Changed
                                                                       Audit Policy
                                                                       Audit Account Logon Events
                                                                       Audit Account Management
                                                                       Audit Directory Service Access
Recommendations




                                                                       Audit Logon Events
                                                                       Audit Object Access
                                                                       Audit Policy Change
                                                                       Audit Privilege Use
                                                                       Audit Process Tracking
                                                                       Audit System Events
Appendices




                                                                     Source: OIG Nessus and GFI LanGuard scanning tools results




                    Topeka, KS, Material Distribution Center –
                    Information Technology Logical Access Controls
                    Report Number IT-AR-14-007
                                                                                                                                                                  Print                                  17
Highlights          Appendix E:
                    Web Vulnerabilities
                    Examples
Table of Contents
Findings
Recommendations
Appendices




                                                                     29	A worldwide organization focused on improving the security of software.
                    Topeka, KS, Material Distribution Center –
                    Information Technology Logical Access Controls
                    Report Number IT-AR-14-007
                                                                                                                                                  Print   18
Highlights
Table of Contents
Findings
Recommendations
Appendices




                    Topeka, KS, Material Distribution Center –
                    Information Technology Logical Access Controls
                    Report Number IT-AR-14-007
                                                                     Print   19
Highlights
Table of Contents
Findings
Recommendations
Appendices




                                                                     31	 A global management consulting firm focused on information security.
                    Topeka, KS, Material Distribution Center –
                    Information Technology Logical Access Controls
                    Report Number IT-AR-14-007
                                                                                                                                                Print   20
Highlights          Appendix F:                                      Table 7 identifies the 14 servers we judgmentally selected for testing and the associated application or function residing on each
                                                                     server. We used automated scanning tools to evaluate each server’s security.
                    Sample Selection Summary
                                                                     Table 7. Servers/Applications/Functions

                                                                                Operating
                                                                       No.      System               IP Address   Server Name      Application/Function
                                                                        1                                                          IPPD Print Server
                                                                        2                                                          IPPD Print Server
Table of Contents




                                                                        3                                                          MDIMS Database Server
                                                                        4                                                          MDIMS Database Server
                                                                        5                                                          MDIMS Application Server
                                                                        6                                                          MDIMS Application Server
                                                                        7                                                          MDIMS Application Server
                                                                        8                                                          MDIMS Application Server
                                                                        9                                                          MDIMS Database Server
                                                                       10                                                          MDIMS Database Server
                                                                       11                                                          MDIMS Application Server
                                                                       12                                                          MDIMS Web Server
                                                                       13                                                          MDIMS Web Server
Findings




                                                                       14                                                          MDIMS Database Server
                                                                     Source: Servers selected for audit by OIG.
Recommendations
Appendices




                    Topeka, KS, Material Distribution Center –
                    Information Technology Logical Access Controls
                    Report Number IT-AR-14-007
                                                                                                                                                                Print                                     21
Highlights          Appendix G:
                    Management’s Comments
Table of Contents
Findings
Recommendations
Appendices




                    Topeka, KS, Material Distribution Center –
                    Information Technology Logical Access Controls
                    Report Number IT-AR-14-007
                                                                     Print   22
Highlights
Table of Contents
Findings
Recommendations
Appendices




                    Topeka, KS, Material Distribution Center –
                    Information Technology Logical Access Controls
                    Report Number IT-AR-14-007
                                                                     Print   23
Highlights
Table of Contents
Findings
Recommendations
Appendices




                    Topeka, KS, Material Distribution Center –
                    Information Technology Logical Access Controls
                    Report Number IT-AR-14-007
                                                                     Print   24
Highlights
Table of Contents
Findings




                                                                        Contact us via our Hotline and FOIA forms, follow us on social
                                                                     networks, or call our Hotline at 1-888-877-7644 to report fraud, waste
                                                                                            or abuse. Stay informed.
Recommendations




                                                                                           1735 North Lynn Street
                                                                                          Arlington, VA 22209-2020
                                                                                                (703) 248-2100
Appendices




                    Topeka, KS, Material Distribution Center –
                    Information Technology Logical Access Controls
                    Report Number IT-AR-14-007
                                                                                                                                              Print   25
